0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief for
Timothy Howard as Amicus Curiae Supporting
Petitioners in No. 19-422 and Respondents in 19-563,
Patrick J. Collins, et al. v. Steven T. Mnuchin,
Secretary of the Treasury, et al. and Steven T.
Mnuchin, Secretary of the Treasury, et al. v. Patrick J.
Collins, et al., were sent via Next Day Service to the
U.S. Supreme Court, and 3 copies were sent via Next
Day Service and e-mail to the following parties listed
below, this 22nd day of September, 2020:
Charles Justin Cooper
Cooper & Kirk, PLLC
1523 New Hampshire Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
ccooper@cooperkirk.com

Counsel for Patrick J. Collins, et al.
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
Room 5616
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Steven T. Mnuchin, et al.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Aaron Lloyd Nielson
J. Reuben Clark Law School
Brigham Young University
516 JRCB
Provo, UT 84602
(801) 422-2669
nielsona@law.byu.edu

Counsel for Court-Appointed Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 22, 2020.

Donna J. WoJfIJ
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date:

~ ~

Notary Public

:

[seal]

JOHN D. GALLAGHER
Notary Public, s.te d Ohio
My Commission Expires
February 14, 2023

